No. 19-309
IN THE

Supreme Court of the United States
JOHN C. CARNEY, GOVERNOR OF DELAWARE,
Petitioner,
v.
JAMES R. ADAMS,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

BRIEF OF AMICUS CURIAE PUBLIC CITIZEN
IN SUPPORT OF RESPONDENT

ALAN B. MORRISON
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H Street NW
Washington, DC 20052
(202) 994-7120

KAITLIN E. LEARY
Counsel of Record
SCOTT L. NELSON
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20TH Street NW
Washington, DC 20009
(202) 588-1000
kleary@citizen.org

Attorneys for Amicus Curiae
February 2020

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 6
I. The major-party requirement violates the First
Amendment. .......................................................... 6
A. Laws imposing severe burdens on the right
to associate must be narrowly tailored to
advance a compelling state interest. ............... 6
B. The major-party requirement imposes a
severe burden on the right to associate. ......... 8
C. The major-party requirement is not
narrowly tailored to serve a compelling
state interest. ................................................. 11
D. The major-party requirement does not
survive even “closely drawn” scrutiny. .......... 16
II. By itself, a bare-majority limitation would
not violate the First Amendment........................ 17
A. A bare-majority limitation is not a severe
burden on the right to associate. ................... 18
B. Operating alone, a bare-majority limitation
would be closely drawn to serve the substantial interest in maintaining political balance
on Delaware’s courts without unnecessarily
abridging associational freedoms. ................. 19
III. Whether judges are “policymakers” is
irrelevant to the questions presented here. ...... 21
A. The “policymaker exception” is limited to
patronage-based employment decisions. ....... 22

ii
B. The “policymaker exception” does not apply
to laws disqualifying citizens from judicial
office based on political affiliation. ................ 24
C. The First Amendment does not prevent
consideration of political affiliation in judicial
appointments. ................................................. 26
IV. The Third Circuit’s holding that the
unconstitutional major-party requirement
is not severable is controlled by state law......... 28
CONCLUSION.......................................................... 29

iii
TABLE OF AUTHORITIES
Cases

Pages

Anderson v. Celebrezze,
460 U.S. 780 (1983) ............... 6, 7, 8, 10, 12, 16, 21
Branti v. Finkel,
445 U.S. 507 (1980) ........................... 21, 23, 24, 25
Buckley v. Valeo,
424 U.S. 1 (1976) ....................................... 7, 17, 19
Burdick v. Takushi,
504 U.S. 428 (1992) ......................................... 7, 11
Caperton v. A.T. Massey Coal Co.,
556 U.S. 868 (2009) ............................................. 20
City of Lakewood v. Plain Dealer Publishing Co.,
486 U.S. 750 (1988) ............................................. 28
Clingman v. Beaver,
544 U.S. 581 (2005) ................................... 7, 11, 19
Elrod v. Burns,
427 U.S. 347 (1976) ............................. 6, 21, 23, 24
FEC v. Colorado Republican Federal Campaign
Committee,
533 U.S. 431 (1996) ............................................. 12
FEC v. Wisconsin Right to Life, Inc.,
551 U.S. 449 (2007) ............................................. 13
Gregory v. Ashcroft,
501 U.S. 452 (1991) ............................................. 27
Hechinger v. Martin,
411 F. Supp. 650 (D.D.C. 1976),
aff’d mem., 429 U.S. 1030 (1977) ........................ 20
Keyishian v. Board of Regents of the University
of the State of New York,
385 U.S. 589 (1967) ............................................. 10

iv
Kurowski v. Krajewski,
848 F.2d 767 (7th Cir. 1988) ............................... 28
Kusper v. Pontikes,
414 U.S. 51 (1973) ................................................. 6
McCutcheon v. FEC,
572 U.S. 185 (2014) ............................................. 13
NAACP v. Button,
371 U.S. 415 (1963) ............................................. 13
New York State Board of Elections v. López Torres,
552 U.S. 196 (2008) ....................................... 12, 28
Newman v. Voinovich,
986 F.2d 159 (6th Cir. 1993) ............................... 28
Norman v. Reed,
502 U.S. 279 (1992) ................................... 7, 20, 21
Perry v. Sindermann,
408 U.S. 593 (1972) ......................................... 9, 11
Planned Parenthood of Central Missouri v.
Danforth,
428 U.S. 52 (1976) ............................................... 28
Riley v. National Federation of the Blind of
North Carolina, Inc.,
487 U.S. 781 (1988) ............................................. 13
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ......................................... 6, 10
Rosario v. Rockefeller,
410 U.S. 752 (1973) ............................................. 15
Rutan v. Republican Party of Illinois,
497 U.S. 62 (1990) ............. 9, 11, 21, 22, 23, 24, 27
Storer v. Brown,
415 U.S. 724 (1974) ....................................... 10, 15

v
Timmons v. Twin Cities Area New Party,
520 U.S. 351 (1997) ................... 7, 8, 11, 14, 16, 19
United Public Workers of America v. Mitchell,
330 U.S. 75 (1947) ............................................... 10
Williams v. Rhodes,
393 U.S. 23 (1968) ..................................... 6, 10, 16
Williams-Yulee v. Florida Bar,
575 U.S. 433 (2015) ........................... 11, 19, 20, 25
Delaware Authorities
Delaware Constitution art. IV, § 3 ....................... 8, 18
Delaware Supreme Court Rule 41(a)(ii) .................. 29
Gov. John Carney, Executive Order No. 7
(Mar. 9, 2017), https://governor.delaware.gov/executive-orders/eo07/. ............................................ 15
State of Delaware, Party Tabulation of Registered
Voters (Feb. 2, 2020),
https://elections.delaware.gov/reports/pdfs/
20200201_partytotals.pdf...................................... 9
Articles
Brian D. Feinstein & Daniel J. Hemel,
Partisan Balance with Bite,
118 Colum. L. Rev. 9 (2018) .......................... 13, 14
Scott Gross, Ominous Trend for Delaware GOP:
The Voter Registration Gap Is Widening, Wilmington News J., Aug. 9, 2018, https://www.delawareonline.com/story/news/politics/2018/08/09/delaware-gops-dirty-secret-voterregistration-gap-widening/937223002/ ................. 9
Leo E. Strine, Jr., The Delaware Way: How We
Do Corporate Law and Some of the New

vi
Challenges We (and Europe) Face,
30 Del. J. Corp. L. 673 (2005).............................. 20

INTEREST OF AMICUS CURIAE1
Public Citizen is a nonprofit consumer advocacy organization that appears on behalf of its members and
supporters nationwide before Congress, administrative agencies, and courts on a wide range of issues.
Among Public Citizen’s interests is the preservation of
First Amendment rights for individuals who are independent voters or affiliated with third parties. Public
Citizen recognizes the importance of protecting the
rights of such individuals to associate (or not to associate) with the political party of their choice to foster
the expression of a variety of viewpoints on political
and social issues. A state interferes with these rights
when it enacts laws conditioning the receipt of a government benefit, such as public employment, on one’s
political affiliation.
At the same time, Public Citizen also has a
longstanding interest in the actual and perceived fairness and integrity of our judicial systems. That concern is implicated in this case by Delaware’s attempt
to produce an impartial judiciary through political
balance requirements for state court judges found in
the Delaware Constitution.
Public Citizen submits this brief to assist the Court
in assessing these competing interests.

––––––––––––––––––––––––
This brief was not written in whole or in part by counsel for
a party and no one other than amicus curiae or its counsel made
a monetary contribution to the preparation or submission of this
brief. The petitioner has filed a blanket consent to amicus briefs,
and the respondent has consented in writing to the filing of this
brief.
1

2
SUMMARY OF ARGUMENT
Both parties to this case have assumed that the
constitutionality of Delaware’s requirement that state
Supreme Court, Superior Court, and Chancery Court
judges be members of one of the two major political
parties turns on whether those judges are “policymakers.” The policymaker inquiry, however, was developed to address issues concerning the constitutionality of political patronage that are irrelevant to
whether a state can by law prohibit individuals who
are not members of major political parties from serving as judges.
Instead, to assess the burden on association entailed by the major-party requirement, the Court
should apply its standard freedom-of-association analysis, which calls for strict scrutiny of laws imposing
severe burdens on associational rights. Under such
scrutiny, the major-party requirement fails. By contrast, a prohibition on one-party domination of the
courts imposes a much more modest burden that, if
not linked to a major-party requirement, would trigger less stringent scrutiny. Such a requirement would
pass muster because of its direct advancement of the
substantial state interest in the balance and fairness
of the state’s judiciary.
I. The First Amendment right to associate encompasses the right to affiliate with the political party of
one’s choice. Laws that impose a severe burden on that
right are subject to strict scrutiny: They must be narrowly tailored to advance a compelling state interest.
Laws imposing lesser burdens, however, trigger less
exacting review.
Delaware’s constitution provides that all members
of its three highest courts—the Supreme Court,

3
Superior Court, and Court of Chancery—must be
members of one of the two major political parties.
State law thus categorically disqualifies the approximately 25% of the state’s citizens who have no party
affiliation, or who are members of minor parties, from
serving as judges on these courts, unless they alter
their affiliation to either the Democratic or Republican Party. Such an outright exclusion of a broad swath
of the population from eligibility to hold public office
based on their choices regarding political affiliation
imposes a severe burden on the right to associate.
The major-party requirement is not narrowly tailored to serve a compelling state interest. No one asserts that citizens who are not Democrats or Republicans are unqualified to do justice or that their presence on a court would necessarily result in an imbalance that would result in either the appearance or reality of damage to the impartiality and nonpartisanship of the court. Rather, the justification offered for
the major-party requirement is that it is a prophylactic measure aimed at preventing circumvention of the
separate and more limited requirement that no more
than a bare majority of any of the courts in question
may be made up of members of the same major party.
Although prophylactic measures may sometimes satisfy strict scrutiny, the sweeping disability imposed on
unaffiliated citizens here does not. Significantly less
restrictive alternatives—such as a bipartisan nominating commission or a cooling-off period after a judicial nominee changes party affiliation—are available
to Delaware to prevent circumvention of the purposes
served by the bare-majority limitation. Therefore, the
major-party requirement violates the First Amendment.

4
II. In contrast to the major-party requirement, a
bare-majority limitation, operating alone, does not severely burden the right to associate. It imposes no outright disqualification from office on affiliates of any
party or on unaffiliated citizens; rather, it is a conditional limitation that only disqualifies from consideration for specific appointments candidates affiliated
with a political party that already occupies a majority
of the seats on the court on which there is a vacancy.
Because it does not impose a severe burden on freedom of association, a bare-majority limitation is subject only to intermediate scrutiny, to ensure that the
interests it serves are sufficiently substantial to justify whatever limitations it imposes on associational
freedoms. Under such scrutiny, even a significant interference with the right to associate must be sustained if it is closely drawn to advance a sufficiently
important interest without unnecessarily abridging
associational freedoms. A bare-majority limitation by
itself would pass muster here, because it would serve
Delaware’s compelling interest of maintaining an impartial, nonpartisan balance on its courts, and be no
broader than necessary to do so.
III. Although the Third Circuit correctly held that
the major-party requirement unconstitutionally infringes on associational rights, both it and the parties
wrongly approach the question by asking whether
judges are “policymakers.” Under this Court’s decisions concerning political patronage in government
employment, whether a government official is a “policymaker” is shorthand for whether the official occupies a position for which loyalty to the party in power
is a relevant qualification. Under such circumstances,
elected officials and governmental decisionmakers
who answer to them may make discretionary hiring

5
and firing decisions based on a subordinate’s political
affiliation without running afoul of the First Amendment. Whether government personnel decisions may
be based on an individual’s loyalty to or affiliation
with the party in power, however, is a different question from whether a state can by law make political
party membership a requirement for office. Furthermore, the “policymaker exception” does not apply
when the government’s asserted interest is something
other than the need to maintain politically loyal employees. Here, no one asserts that loyalty to any political party is a relevant qualification for holding a
judgeship or that the major-party requirement is intended to ensure such loyalty.
In short, the “policymaker” criterion is ill-suited to
informing the resolution of whether the tens of thousands of Delaware citizens who are not and do not
wish to be members of a major political party may be
completely excluded by law from serving on Delaware’s most important courts. Such exclusion is indefensible, regardless of whether judges make policy.
And because the conclusion that the major-party requirement is unconstitutional does not depend one
way or the other on application of the “policymaker”
label, it does not imply that political affiliations and
beliefs are impermissible considerations in the selection of judges.
IV. The court of appeals correctly held that the
question whether Delaware’s major-party requirement is severable from its bare-majority limitation is
a question of state law. This Court cannot authoritatively resolve that question.

6
ARGUMENT
I. The major-party requirement violates the
First Amendment.
A. Laws imposing severe burdens on the
right to associate must be narrowly tailored to advance a compelling state interest.
This Court has “long understood as implicit in the
right to engage in activities protected by the First
Amendment a corresponding right to associate with
others in pursuit of a wide variety of political, social,
economic, educational, religious, and cultural ends.”
Roberts v. U.S. Jaycees, 468 U.S. 609, 622 (1984). In
addition, “[f]reedom of association … plainly presupposes a freedom not to associate.” Id. at 623.
“The right to associate with the political party of
one’s choice is an integral part of this basic freedom.”
Kusper v. Pontikes, 414 U.S. 51, 57 (1973). Indeed, “political belief and association constitute the core of
those activities protected by the First Amendment.”
Elrod v. Burns, 427 U.S. 347, 356 (1976); see also Williams v. Rhodes, 393 U.S. 23, 30 (1968) (“[T]he right of
individuals to associate for the advancement of political beliefs … rank[s] among our most precious freedoms.”).
Like other First Amendment rights, however, the
right to associate is not absolute. Roberts, 468 U.S. at
623. To determine whether a government-imposed restriction on associational freedoms violates the First
Amendment, a court “must first consider the character and magnitude” of the infringement on protected
interests. Anderson v. Celebrezze, 460 U.S. 780, 789
(1983). “It then must identify and evaluate the precise

7
interests put forward by the State as justifications for
the” restriction. Id. Finally, the court must “determine
the legitimacy and strength of each of those interests,
[and] consider the extent to which those interests
make it necessary to burden the plaintiff’s rights.” Id.
A law that burdens the right to associate will be struck
down if it “sweeps broader than necessary to advance”
the state’s asserted interests. Norman v. Reed, 502
U.S. 279, 290 (1992).
Under this Court’s freedom of association jurisprudence, “the rigorousness of [the] inquiry … depends
upon the extent to which a challenged regulation burdens First and Fourteenth Amendment rights.” Burdick v. Takushi, 504 U.S. 428, 434 (1992). “Regulations imposing severe burdens on plaintiffs’ rights
must be narrowly tailored and advance a compelling
state interest. Lesser burdens, however, trigger less
exacting review[.]” Timmons v. Twin Cities Area New
Party, 520 U.S. 351, 358 (1997) (citing Burdick, 504
U.S. at 434); Clingman v. Beaver, 544 U.S. 581, 586–
87 (2005). Burdens on associational rights that are not
severe must be supported by interests “sufficient to
outweigh” the burden and must serve those interests
in a “reasonable” way. Burdick, 504 U.S. at 440–41.
Under this approach, “[e]ven a significant interference
with protected rights of political association may be
sustained if the State demonstrates a sufficiently important interest and employs means closely drawn to
avoid unnecessary abridgment of associational freedoms.” Buckley v. Valeo, 424 U.S. 1, 25 (1976) (internal quotation marks omitted). However, “strict scrutiny” remains appropriate “if the burden is severe.”
Clingman, 544 U.S. at 592.

8
B. The major-party requirement imposes a
severe burden on the right to associate.
“A burden that falls unequally on new or small political parties or on independent candidates impinges,
by its very nature, on associational choices protected
by the First Amendment” and thus is likely to be severe. Anderson, 460 U.S. at 793. In contrast, a restriction that “applies to major and minor parties
alike” is less likely to constitute a severe burden on
the right to associate. See Timmons, 520 U.S. at 360.
Here, the major-party requirement “falls unequally”—in fact, exclusively—on Delaware citizens
who have either chosen to affiliate with third parties
or chosen not to affiliate with a party at all. Specifically, Delaware’s constitution prohibits anyone who is
not a member of the Democratic or Republican parties
from serving on the Delaware Supreme Court, the Superior Court, or the Court of Chancery. See Del. Const.
art. IV, § 3. The major-party requirement ensures
that, regardless of the political affiliations of the current judges on those courts, no candidate who is unaffiliated or who is affiliated with a third party can ever
be considered for a judgeship on one of those courts.
See Pet. App. 8a; Pet’r Br. 1, 4, 6.
These provisions of Delaware law exclude a broad
swath of the state’s citizens from eligibility for service
on the state’s principal courts. The latest available figures on party membership of Delaware voters show
that approximately 47% are Democrats, 28% are Republicans, and the remaining 25% of the electorate is
split between unaffiliated voters (approximately 23%
of all voters) and members of minor parties (approx-

9
imately 2%).2 The major-party requirement thus
makes one in four Delaware citizens constitutionally
ineligible for high judicial office solely because of their
exercise of associational rights.
The proportion of Delaware’s population that is excluded from judicial office is growing: Among new voters registered between 2010 and 2018, unaffiliated
and minor-party voters outnumbered Republicans by
approximately 2.5 to 1, and unaffiliated voters will
outnumber Republicans statewide within twenty-five
years if this trend continues.3 Even then, however,
Democrats and Republicans will retain their monopoly on judicial office because unaffiliated citizens are,
by definition, not members of a major party.
The major-party requirement forces those who aspire to judicial office and who are independents or
members of third parties to choose between exercising
their constitutionally protected right not to associate
with a major political party or seeking a state judgeship. But the government “may not deny a benefit to a
person on a basis that infringes his constitutionally
protected interests,” Perry v. Sindermann, 408 U.S.
593, 597 (1972), including the right to associate (or
not) with a political party. See Rutan v. Republican
Party of Ill., 497 U.S. 62, 77 (1990) (“The government
‘may not enact a regulation providing that no
––––––––––––––––––––––––
These percentages are based on the Delaware Department
of Elections’ tabulation of registered voters by party. See State of
Del., Party Tabulation of Registered Voters, https://elections.delaware.gov/reports/pdfs/20200201_partytotals.pdf (Feb. 1, 2020).
2

See Scott Gross, Ominous Trend for Delaware GOP: The
Voter Registration Gap Is Widening, Wilmington News Journal,
Aug. 9, 2018, https://www.delawareonline.com/story/news/polit
ics/2018/08/09/delaware-gops-dirty-secret-voter-registration-gap
-widening/937223002/.
3

10
Republican … shall be appointed to federal office.’”
(quoting United Pub. Workers of Am. v. Mitchell, 330
U.S. 75, 100 (1947))); Keyishian v. Bd. of Regents of the
Univ. of the State of N.Y., 385 U.S. 589, 609–10 (1967)
(holding unconstitutional a state law that disqualified
individuals for public employment based solely on
membership in the Communist Party). And because
freedom of association “plainly presupposes a freedom
not to associate,” Roberts, 468 U.S. at 623, it is no solution to say that one who wants to be considered for
a judgeship in Delaware can affiliate with whichever
of the two major parties more closely reflects his or her
views, even if the fit is not perfect. Cf. Storer v. Brown,
415 U.S. 724, 746 (1974) (holding that states cannot
require an independent candidate to affiliate with a
political party in order to appear on the ballot).
This Court has long recognized that provisions
that grant a “complete monopoly” on public office to
the two major political parties are subject to strict
scrutiny because they severely burden the associational rights of citizens who are not members of those
parties. Rhodes, 393 U.S. at 32; see also Storer, 415
U.S. at 729 (explaining that the restrictions in Rhodes,
which effectively barred independents and members
of third parties from running for office, “severely burdened the right to associate for political purposes”).
The Court has emphasized that restrictions that
“place[] a particular burden on an identifiable segment of … independent-minded voters” by precluding
their participation in public life are “especially difficult for the State to justify.” Anderson, 460 U.S. at
792–93. Conversely, when concluding that a law does
not impose a severe burden on association, the Court
has frequently observed that it does not “exclude[] a
particular group of citizens, or a political party, from

11
participation,” Timmons, 520 U.S. at 361, or “disqualify [a minor party] from public benefits or privileges,”
Clingman, 544 U.S. at 587 (plurality opinion).
The major-party requirement has exactly those
consequences. It “den[ies] a benefit to a person because of his constitutionally protected speech or associations,” and thus “penalize[s] and inhibit[s]” “his exercise of those freedoms.” Perry, 408 U.S. at 597. Indeed, if “Republican” is replaced with “independent,”
this Court’s description in Rutan of a law that would
be per se unconstitutional—one “providing that no Republican … shall be appointed to … office,” 497 U.S.
at 77—perfectly describes Delaware’s major-party requirement.
C. The major-party requirement is not narrowly tailored to serve a compelling state
interest.
Because the major-party requirement severely
burdens the associational rights of Delaware’s many
citizens who are not major-party members, it cannot
be upheld unless it is “narrowly tailored and advance[s] a compelling state interest.” Timmons, 520
U.S. at 358 (citing Burdick, 504 U.S. at 434). The requirement does not do so.
The petitioner asserts that Delaware’s interest in
the major-party requirement is the same one served
by provisions in the same section of its constitution
that limit any one party to no more than a bare majority on a court: the interest in “maintaining a politically
balanced judiciary.” Pet’r Br. 38. That interest is
closely tied to the undoubtedly compelling interest in
maintaining the appearance and reality of a fair and
impartial judiciary. See Williams-Yulee v. Fla. Bar,
575 U.S. 433, 444 (2015). And this Court has

12
recognized that states can legitimately “discourage
party monopoly” over their court systems. N.Y. State
Bd. of Elections v. López Torres, 552 U.S. 196, 208
(2008). But unlike the bare-majority limitation,
which, as explained further below, see infra pp. 19–21,
directly serves that interest by preventing one-party
domination of the judiciary, the major-party requirement does not advance the interest in political balance. No one suggests that independents and members of minor parties are intrinsically less likely to
possess the qualities of judgment and impartiality
that are essential to preserving the courts’ fairness
and appearance of fairness. Similarly, there is no reason to believe that judges who lack party affiliation, or
who are members of minor parties, have a greater tendency to make courts politically “unbalanced” than
judges who are members of major parties. Lack of partisan affiliation is hardly a sign of partisanship, and
the petitioner does not argue otherwise.
Rather, the “precise interest[] put forward by the
State as justification[] for the” major-party requirement, Anderson, 460 U.S. at 789, is that it is a prophylactic measure intended to prevent governors from circumventing the provisions that limit one party to a
bare majority on any court. Pet’r Br. 43. The petitioner
claims that, without the major-party requirement,
governors seeking to pack the courts with like-minded
judges would be able to “appoint[] nominal ‘independents’ once their own party’s quota is filled.” Id.
Even where First Amendment associational and
speech rights are implicated, prophylactic measures
aimed at preventing circumvention of laws that serve
legitimate state interests are constitutional if they
meet the applicable standard of scrutiny. See, e.g.,
FEC v. Colo. Republican Fed. Campaign Comm., 533

13
U.S. 431, 456 (1996). When strict scrutiny applies,
prophylactic measures must not burden constitutionally protected interests more broadly than reasonably
necessary to achieve compelling interests. Riley v.
Nat’l Fed’n of the Blind of N.C., Inc., 487 U.S. 781,
798–801 (1988).4 “Broad prophylactic rules” that severely burden free expression and association “are
suspect,” and “[p]recision of regulation must be the
touchstone in an area so closely touching our most precious freedoms.” NAACP v. Button, 371 U.S. 415, 438
(1963).
Here, however, the state has not shown that
broadly excluding citizens who are not affiliated with
a major party from serving as judges is a narrowly tailored anti-circumvention measure that serves the interest in achieving a balanced judiciary. In attempting
to justify the major-party requirement, the petitioner
relies on “a recent study of federal agency appointees”
that purportedly found that, “when one party dominates the appointment and confirmation process, partisan balance requirements without other-majorparty provisos are vulnerable to ‘gaming.’” Pet’r Br. 43
(citing Brian D. Feinstein & Daniel J. Hemel, Partisan
Balance with Bite, 118 Colum. L. Rev. 9, 20–21
(2018)). In reality, the authors of that study reviewed
216 cross-party appointments to twenty-three federal
agencies that have political balance requirements
(“PBRs”) but not major-party membership requirements, and they “identified only seven cases in which
––––––––––––––––––––––––
This Court has struck down anti-circumvention and prophylactic measures that it determined to be insufficiently tailored to
the harm to be avoided in such cases as McCutcheon v. FEC, 572
U.S. 185 (2014). See also FEC v. Wisc. Right to Life, Inc., 551 U.S.
449, 479 (2007) (“[A] prophylaxis-upon-prophylaxis approach to
regulating expression is not consistent with strict scrutiny.”).
4

14
a President named an independent at a time when a
PBR prohibited him from appointing a member of his
own party to an agency.” Feinstein & Hemel, supra, at
19 (emphasis added). The authors concluded that
“[t]hese seven cases, moreover, do not suggest a pattern of Presidents attempting to manipulate PBRs by
filling cross-party seats with like-minded independents.” Id. (emphasis added).
Beyond unsupported speculation about executive
gamesmanship, the petitioner has not presented any
reason why the major-party requirement is necessary
to serve Delaware’s interest in maintaining political
balance on its courts. There is little reason to believe
that Delaware cannot achieve its interest in political
balance by limiting any one political party to no more
than a bare majority of seats on its principal courts,
without excluding citizens who are not affiliated with
a major party from the privilege of serving.
Furthermore, even if the state has a genuine need
to prevent circumvention of the bare-majority limitation, the major-party requirement is not narrowly tailored to advance that interest. Indeed, a categorical
exclusion of individuals based solely on their constitutionally protected political affiliations (or lack thereof)
will rarely qualify as “narrowly tailored.” See Timmons, 520 U.S. at 367 (explaining that states cannot
“completely insulate the two-party system from minor
parties’ or independent candidates’ competition and
influence”).
Delaware could enact other prophylactic measures
that are significantly less restrictive of associational
freedoms than the categorical exclusion imposed by
the major-party requirement. For example, if there
were reason to fear that major-party members might

15
disaffiliate from their party so that they could be appointed to courts where that party already had a majority, Delaware could provide that persons who had
left a party less than, say, one year before appointment would be counted as members of that party for
purposes of bare-majority limitations. Cf. Storer, 415
U.S. at 735–36 (holding that a state may exclude persons who have been disaffiliated from a party for less
than twelve months from running as independents);
Rosario v. Rockefeller, 410 U.S. 752 (1973) (upholding
similar waiting period before voters who switch parties may vote in their new party’s primary). Such a
provision would be more effective in preventing circumvention than the major-party requirement, which
does nothing to stop judicial nominees from evading
the bare-majority limitation simply by switching from
one major party to another.
In addition, by executive order, Delaware already
employs a judicial nominating commission composed
of a diverse range of Delaware citizens, of whom no
more than a bare majority may be from any one political party. In most cases, the governor must select a
nominee from lists of qualified candidates supplied by
the commission.5 This procedure renders it especially
unlikely that nomination of a disguised partisan
would undermine requirements aimed at preventing
partisan imbalance. And if there were, nonetheless, a
realistic possibility that a major party might be shut
out of the courts altogether, Delaware might require
that at least one position on its Supreme Court, and
some minimum number on its other courts, be occupied by members of each of the major political parties,
––––––––––––––––––––––––
See Gov. John Carney, Executive Order No. 7 (Mar. 9, 2017),
https://governor.delaware.gov/executive-orders/eo07/.
5

16
respectively. Such a requirement would provide a
backstop to a bare-majority limitation without categorically excluding individuals who do not belong to a
major party from serving on the courts.
In sum, although political balance in the abstract
is a worthy goal, a state’s interest in enforcing a conception of political balance that excludes a quarter of
the state’s population from consideration is not compelling. The state has no legitimate interest in categorically excluding from consideration for judicial office an otherwise-qualified candidate who is independent or affiliated with a third party. Just as there is “no
reason why two parties should retain a permanent
monopoly on the right to have people vote for or
against them,” Rhodes, 393 U.S. at 32, there is also no
reason why the two major parties should retain a permanent monopoly on the most important state judgeships in Delaware. Cf. Anderson, 460 U.S. at 794
(“[T]he primary values protected by the First Amendment … are served when election campaigns are not
monopolized by the existing political parties.”). Thus,
Delaware’s “interest in securing the perceived benefits
of a stable two-party [judiciary] will not justify unreasonably exclusionary restrictions” against independents and members of third parties. Timmons, 520 U.S.
at 367. The interest in political balance does not require making courts the exclusive domain of the major
parties.
D. The major-party requirement does not
survive even “closely drawn” scrutiny.
By forcing a choice between exercise of associational rights and eligibility for judicial office, the major-party requirement is, at a minimum, “a significant
interference with protected rights of political

17
association.” Buckley, 424 U.S. at 25 (internal quotation marks omitted). Even if that interference were
not severe enough to require strict scrutiny, it could
be sustained only “if the State demonstrates a sufficiently important interest and employs means closely
drawn to avoid unnecessary abridgement of associational freedoms.” Id. The major-party requirement
fails even this less-demanding level of scrutiny because it is not reasonably necessary as a prophylactic
measure to protect against partisan imbalance. The
state has not shown that whatever incremental increase in balance it might bring about is sufficient to
outweigh the significant burden on association caused
by the exclusion of independents and minor party
members. And that exclusion is not closely drawn to
achieve political balance in light of the significantly
less restrictive alternatives that the state could implement to serve its interests. Categorical exclusion of independents and members of third parties from the
Delaware judiciary is thus an “unnecessary abridgement of associational freedoms.” Id.
II. By itself, a bare-majority limitation would
not violate the First Amendment.
In holding that the major-party requirement is unconstitutional, the Third Circuit did not address the
constitutionality of a bare-majority limitation by itself. This Court should likewise avoid any suggestion
that such a limitation, by itself, is unconstitutional. A
true political balance requirement, such as a bare-majority limitation, without the additional major-partymembership requirement, would not violate the First
Amendment. Unlike the major-party requirement, a
bare-majority limitation serves the state’s substantial
interest in maintaining political balance on its state

18
courts without unnecessarily abridging associational
freedoms.
A. A bare-majority limitation is not a severe
burden on the right to associate.
Delaware’s constitution limits the number of judicial positions on Delaware courts that can be occupied
by members of the same political party to “not more
than a bare majority.” Del. Const. art. IV, § 3.6 Unlike
the major-party requirement, which operates as a categorical exclusion for independents and members of
the third parties, the bare-majority limitation presents a conditional infringement on the right to associate that is disqualifying only in limited circumstances and applies evenhandedly. It excludes from
consideration only those candidates who are affiliated
with the political party that already occupies a majority of the seats on a particular court at the time of a
vacancy, and it does so only as long as that majority
persists. Thus, a bare-majority limitation neither categorically excludes anyone from consideration for
state judgeships based on political affiliation, nor by
itself operates unequally on members of major or minor parties or on citizens unaffiliated with political
parties.
The burden on the right to associate imposed by a
conditional limitation, such as a bare-majority limitation, is much less likely to be severe than one imposed
by a categorical exclusion, such as the major-party requirement. For example, in Timmons, the Court
––––––––––––––––––––––––
The provision regarding the Supreme Court is not written
in those terms but has the same effect. It provides: “[T]hree of
the five Justices of the Supreme Court in office at the same time,
shall be of one major political party, and two of said Justices shall
be of the other major political party.” Del. Const. art. IV, § 3.
6

19
concluded that the burdens imposed by Minnesota’s
antifusion laws, which prohibit candidates from appearing on the ballot as the candidate of more than
one political party—“though not trivial—are not severe.” 520 U.S. at 363. In reaching this conclusion, the
Court noted that the Minnesota laws did not “exclude[] a particular group of citizens, or a political
party, from participation in the election process.” Id.
at 361. Similarly, a bare-majority limitation does not
exclude a particular political group from consideration
for a position on the state judiciary. To the contrary, it
ensures that courts will not be dominated by a single
party and thus expands the opportunity of persons of
all affiliations to serve as long as it is not coupled with
the major-party requirement.
B. Operating alone, a bare-majority limitation would be closely drawn to serve the
substantial interest in maintaining political balance on Delaware’s courts without
unnecessarily abridging associational
freedoms.
Because a bare-majority limitation is not a severe
burden on the right to associate, it “trigger[s] less exacting review” than does the major-party requirement. Timmons 520 U.S. at 358; see Clingman, 544
U.S. at 592. At most, a bare-majority limitation is a
“significant” burden on association that is subject to
Buckley’s “closely drawn” variant of intermediate
scrutiny. Buckley, 424 U.S. at 25.
As explained above, this Court has recognized that
the states have a “compelling interest in preserving
public confidence in the integrity of the judiciary[.]”
Williams-Yulee, 575 U.S. at 444. The “judiciary’s authority … depends in large measure on the public’s

20
willingness to respect and follow its decisions.” Id. at
445–46. Thus, “public perception of judicial integrity
is ‘a state interest of the highest order.’” Id. at 446
(quoting Caperton v. A.T. Massey Coal Co., 556 U.S.
868, 889 (2009)).
Maintaining political balance on the courts is one
component of the “public perception of judicial integrity.” The public is much more likely to “respect and
follow” the decisions of “a centrist group of jurists committed to the sound and faithful application of the
law,” Leo E. Strine, Jr., The Delaware Way: How We
Do Corporate Law and Some of the New Challenges We
(and Europe) Face, 30 Del. J. Corp. L. 673, 683 (2005),
than the decisions of a bench composed of partisan
judges who are perceived (rightly or wrongly) as effectuating the will of the person who appointed them.
Maintaining political balance on the courts is thus a
significant component of “preserving public confidence
in the integrity of the judiciary.” See Williams-Yulee,
575 U.S. at 444.
At the very least, maintaining political balance on
the courts is a substantial state interest that is closely
related to undisputedly compelling state interests.
“The concept of minority representation, or stated in
another fashion, limitations on majority representation, is entirely consistent with First Amendment
principles of freedom of expression and association,
and appears altogether legitimate as a legislative objective.” Hechinger v. Martin, 411 F. Supp. 650, 653
(D.D.C. 1976) (three-judge court), aff’d mem., 429 U.S.
1030 (1977). Whether the Court deems this interest to
be “compelling” or “important,” it is certainly “sufficiently weighty to justify the limitation” imposed by a
bare-majority limitation. See Norman, 502 U.S. at
288–89.

21
Unlike the major-party requirement, a bare-majority limitation is closely drawn to serve the state’s interest in maintaining political balance, without unnecessarily abridging associational freedoms. A baremajority limitation only disqualifies party members
from consideration for a state judgeship when their
party already occupies the majority of seats on a court,
and it always allows replacement of a retiring judge
by a member of the same major party, a minor party
member, or an independent, and, frequently, by a
member of the other major party. A bare-majority limitation thus neither penalizes party affiliation (or nonaffiliation) nor “sweeps broader than necessary to advance” Delaware’s interest in maintaining a politically
balanced judiciary. See Norman, 502 U.S. at 290. A
bare-majority limitation also promotes the representation of minority political viewpoints by “preventing
single party dominance.” See Pet. App. 34a. Thus, a
bare-majority limitation standing alone would be
“closely drawn” to serve its purpose, and “the character and magnitude of the” infringement on the right to
associate corresponds to the state’s important interest. See Anderson, 460 U.S. at 789.
III. Whether judges are “policymakers” is irrelevant to the questions presented here.
Although the Third Circuit correctly concluded
that the major-party requirement is unconstitutional,
it erred in holding that the validity of that requirement turns on whether judges are “policymakers”
within the meaning of this Court’s decisions concerning patronage-based government personnel decisions.
See Rutan, 497 U.S. 62; Branti v. Finkel, 445 U.S. 507
(1980); Elrod, 427 U.S. 347. Those decisions hold that
although government decisionmakers generally

22
cannot permissibly make employment decisions based
on an employee’s association (or lack thereof) with the
political party then in power, those decisionmakers
can permissibly make employment decisions on that
basis when loyalty to the party in power is a relevant
job qualification, as is frequently the case for employees with “policymaking” authority.
The Court’s patronage decisions have nothing to do
with the constitutionality of laws disqualifying classes
of citizens—here, individuals who do not belong to a
major party—from holding an elected or appointed office. Such laws are no more acceptable when directed
to “policymakers” than to other government officers
and employees. The governor of a state, for example,
is the quintessential policymaker, but no one would
suggest that a state could for that reason provide in
its constitution that only a Democrat or Republican
may serve as governor. The same is true of a state’s
judicial officers.
A. The “policymaker exception” is limited to
patronage-based employment decisions.
In the patronage cases, this Court considered the
constitutionality of hiring, firing, promoting, and demoting government employees based on their affiliation with “the political party in power.” Rutan, 497
U.S. at 64. Consistent with the Court’s other freedomof-association decisions, these cases establish that a
government official’s practice of hiring or firing public
employees based on their political affiliation violates
the First Amendment unless the practice is “narrowly
tailored to further vital government interests.” Id. at
74.
The “policymaker exception” defines one circumstance in which patronage practices are narrowly

23
tailored to further vital government interests and
thus do not violate the First Amendment. In Elrod, a
plurality of the Court held that patronage dismissals
cannot be justified by the government’s interest in
“the need for political loyalty of [its] employees [to further] the implementation of policies of the new administration” unless the dismissals are limited to only
those employees in “policymaking positions.” Elrod,
427 U.S. at 367.
In Branti, the Court reformulated the so-called
“policymaker exception” announced in Elrod. Branti
held that, in deciding whether a particular dismissal
on the basis of political affiliation violates the First
Amendment, “the ultimate inquiry is not whether the
label ‘policymaker’ or ‘confidential’ fits a particular position; rather the question is whether the hiring authority can demonstrate that party affiliation is an appropriate requirement for the effective performance of
the public office involved.” Branti, 445 U.S. at 518. If
“party affiliation is an appropriate requirement for
the effective performance of the public office involved,”
then the government official’s dismissal of that particular employee is narrowly tailored to further the government’s asserted interest in retaining employees
with “allegiance to the dominant political party,” id.
at 520, and thus does not violate the First Amendment.
In Rutan, the Court reaffirmed that “conditioning
hiring decisions on political belief and association
plainly constitutes an unconstitutional condition, unless the government has a vital interest in doing so.”
Rutan, 497 U.S. at 78. Moreover, the Court explained
that hiring decisions concerning most public employees cannot be justified by the government’s interest in
maintaining politically loyal employees because “a

24
government can meet its need for politically loyal employees to implement its policies by the less intrusive
measure of dismissing, on political grounds, only those
employees in policymaking positions.” Id. at 70 (citing
Elrod, 427 U.S. at 367).
In each of these cases, the Court was concerned
with defining the circumstances in which a government decisionmaker (usually an elected official or political appointee) could consider political affiliations
(usually of subordinates) when making employment
decisions without running afoul of the First Amendment right to associate. When the government’s asserted interest for such decisions is a “need for politically loyal employees,” id. at 70, the decisionmaker is
free to consider the employee’s political affiliation if
the employee is a “policymaker”—or, more precisely, if
“party affiliation is an appropriate requirement for
the effective performance of the public office involved.”
Branti, 445 U.S. at 518.
B. The “policymaker exception” does not apply to laws disqualifying citizens from judicial office based on political affiliation.
The so-called “policymaker exception” is only relevant in the circumstances that gave rise to it: when
political loyalty to the “party in power” is necessary to
serve the government’s asserted interest “in securing
employees who will loyally implement [that party’s]
policies,” Rutan, 497 U.S. at 64, 70, and will not “support … competing political interests,” Elrod, 427 U.S.
at 356. If the government asserts some other interest
to justify a challenged practice, the policymaker exception is inapplicable. A constitutional or statutory
provision that requires party membership as a qualification for public office for reasons wholly unrelated

25
to the need to advance the policy agenda of the political party currently in power, by definition, does not
serve the interest identified in Rutan, Branti, and Elrod.
Moreover, laws such as the major-party requirement impose far more onerous and lasting disabilities
on disfavored groups than do the more transitory
choices of political officials to appoint their allies to office during the time they are in power. Thus, while a
Democratic governor may legitimately prefer a Democrat as a speechwriter, and his Republican successor
may likewise hire a Republican for the same position,
see Branti, 445 U.S. at 518, a state law that said gubernatorial speechwriters must be Democrats or Republicans would not even arguably serve any interest
sufficient to justify the burden it imposed on associational freedoms. Nothing in the “policymaker” exception suggests otherwise.
Here, the major-party requirement has no relationship to the concerns that gave rise to this Court’s
recognition of a policymaker exception. Delaware’s asserted interest in the major-party requirement is in
maintaining political balance on the judiciary, not in
securing politically loyal employees to faithfully implement the administration’s policies. See Pet’r Br. 28
(“[N]one of the Court’s [patronage] decisions involved
a regime where party affiliation was considered to ensure bipartisanship or party balance.”). Furthermore,
the petitioner does not suggest that political loyalty to
the party in power is a relevant qualification for service as a judge, and any such suggestion would be contrary to the basic principle that a judge’s duty is to
“apply the law without fear or favor.” Williams-Yulee,
575 U.S. at 438.

26
That the major-party requirement is not aimed at
placing politically loyal employees in policymaking positions is confirmed by the fact that the constitutional
provisions in which it is embedded compel the governor to appoint a judge who is not a member of his own
party when the governor’s political party already
holds a majority of the seats on the court on which
there is a vacancy. And because of the major-party requirement, an independent or third-party governor
could never appoint a member loyal to his own political
orientation to a Delaware court. The reasons underlying the policymaker exception are not implicated by
the major-party requirement, and the policymaker exception is therefore irrelevant to whether the burdens
on association imposed by that requirement serve a
compelling governmental interest.
C. The First Amendment does not prevent
consideration of political affiliation in judicial appointments.
Because the conclusion that the major-party requirement is unconstitutional does not depend on the
premise that judges are not policymakers, that conclusion also does not imply that judicial appointments
cannot be based on partisan considerations. Rather,
political affiliation can be an appropriate consideration in making judicial appointments, and it is precisely for that reason that states may choose to pursue
partisan balance in their laws governing judicial appointment.
The Third Circuit’s reasoning, however, suggests
otherwise: By looking to the Elrod line of cases and
grounding its holding that the major-party requirement is unconstitutional on the view that Delaware
judges are not “policymakers,” the lower court’s

27
decision implies that elected officials may not consider
political affiliation when making judicial appointments. Thus, as the petitioner puts it, the Third Circuit’s rationale appears to “create a constitutional
anomaly: The people of the States could consider partisan affiliation directly in voting for judges, but an
elected official could not consider the same factor in
carrying out their wishes.” Pet’r Br. 30.
No such anomaly arises, however, from recognizing that the major-party requirement is unconstitutional—regardless of whether judges are characterized as “policymakers”—because it imposes a severe
and unjustified burden on associational rights. That
conclusion is entirely consistent with recognition that
elected officials may consider political affiliation when
making judicial appointments—not because, in Rutan’s terms, loyalty to the “political party in power” is
“an appropriate requirement for the position involved,” 497 U.S. at 64, but because the nature of a
judge’s responsibilities are such that considerations of
political association and belief are appropriate to, and
perhaps inseparable from, evaluation of potential judicial appointees. “In resolving disputes, although
judges do not operate with unconstrained discretion,
they do choose from among alternatives and elaborate
their choices in order to guide and … determine present and future decisions.” Gregory v. Ashcroft, 501
U.S. 452, 482 (1991) (White, J., concurring) (ellipsis in
original; internal quotation marks omitted). Thus, a
government official should be “entitled to consider” a
judicial appointee’s “views about the role of judges—
or even simply [the appointee’s] political affiliation—
when making the appointment, just as the voters may
consider these factors without violating the first
amendment when deciding whether to retain [the

28
judge] in office.” Kurowski v. Krajewski, 848 F.2d 767,
770 (7th Cir. 1988); see also Newman v. Voinovich, 986
F.2d 159, 162–63 (6th Cir. 1993).
Without Delaware’s bare-majority limitation, a
governor could “pack[] the courts with appointees
from [a] particular political party,” Pet’r Br. 1, undermining the public’s perception of judicial integrity and
impartiality. The First Amendment does not prohibit
appointing authorities from making such choices, but
it likewise does not deny states the power to constrain
them. See López Torres, 552 U.S. at 208. Recognition
that Delaware cannot by law exclude citizens who are
neither Democrats nor Republicans from serving as
judges does not foreclose all consideration of political
affiliation in judicial appointments.
IV. The Third Circuit’s holding that the unconstitutional major-party requirement is not
severable is controlled by state law.
The Third Circuit’s conclusion that the majorparty requirement unconstitutionally infringes on associational freedom is correct. The remedial question
whether an otherwise constitutional bare-majority
limitation must also be struck down as inseverable is,
as the Third Circuit held and the petitioner agrees, “a
question of state law.” Pet. App. 33a; Pet’r Br. 50. This
Court cannot provide an authoritative ruling on the
question, and its prediction of state law, like the Third
Circuit’s, would have preclusive effect only on the parties. See Planned Parenthood of Cent. Mo. v. Danforth,
428 U.S. 52, 101 n.4 (1976) (White, J., concurring in
judgment in part and dissenting in part). The Court
ordinarily does not address such questions. See City of
Lakewood v. Plain Dealer Publ’g Co., 486 U.S. 750,
772 (1988). However, if the Court is concerned about

29
the Third Circuit’s severability analysis, it has the option of certifying the question to the Delaware Supreme Court to allow the state court to decide the issue of severability definitively under state law. See
Del. Sup. Ct. R. 41(a)(ii).
CONCLUSION
For the foregoing reasons, the Court should affirm
the Third Circuit’s holding that the major-party requirement violates the First Amendment.
Respectfully submitted,
ALAN B. MORRISON
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H Street NW
WASHINGTON, DC 20052
(202) 994-7120

KAITLIN E. LEARY
Counsel of Record
SCOTT L. NELSON
ALLISON M. ZIEVE
PUBLIC CITIZEN
LITIGATION GROUP
1600 20TH STREET NW
WASHINGTON, DC 20009
(202) 588-1000
kleary@citizen.org

Attorneys for Amicus Curiae
February 2020

